      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                         Washington, D.C. 20201




June 22, 2010

TO:             Marilyn Tavenner
                Acting Administrator and Chief Operating Officer
                Centers for Medicare & Medicaid Services


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicaid Disproportionate Share Hospital Payment Distribution
                (A-07-09-04150)


The attached final report provides the results of our review of the distribution of Medicaid
disproportionate share hospital payments.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers
for Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov.
Please refer to report number A-07-09-04150 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF MEDICAID
  DISPROPORTIONATE SHARE
     HOSPITAL PAYMENT
       DISTRIBUTION




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-07-09-04150
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

BACKGROUND

Medicaid Disproportionate Share Hospital Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Omnibus Budget Reconciliation Act (OBRA) of 1981 established the Medicaid
Disproportionate Share Hospital (DSH) program. The Medicaid DSH program was established
in response to findings that public hospitals and teaching hospitals, which serve a large Medicaid
and low-income population, are particularly dependent on Medicaid reimbursement, have high
levels of uncompensated care costs, and therefore need additional financial support to continue
providing care to the needy. (Uncompensated care costs are the sum of costs incurred to provide
services to Medicaid and uninsured patients less payments received for those patients.)

The DSH program requires State Medicaid agencies (State agency) to make special payments,
known as DSH payments, to hospitals that serve unusually large numbers of low-income and/or
uninsured patients. The Federal Government reimburses State agencies for a percentage of their
DSH payments. In 1997, State agencies were allotted approximately $11.7 billion for DSH
payments; in 2007, the State agencies were allotted approximately $10.6 billion.

Disproportionate Share Hospital Payment Eligibility

For a hospital to receive DSH payments, the State agency must classify the hospital as DSH.
Section 1923 of the Act states that State agencies must make DSH payments to certain hospitals
that meet specified requirements and thus are deemed DSH. Specifically, a hospital is deemed
DSH, and a State agency must make DSH payments to it, if the hospital’s Medicaid inpatient
utilization rate (MIUR) is at least one standard deviation greater than the average for all hospitals
participating in Medicaid or if its low-income utilization exceeds 25 percent. (A hospital’s
MIUR, expressed as a percentage, is the number of inpatient days attributable to patients who
were Medicaid-eligible divided by the total of the hospital’s inpatient days in a particular year.)
In addition, section 1923 of the Act allows State agencies to designate additional hospitals in
their State plans as DSH provided that such hospitals each have an MIUR of not less than
1 percent.




                                                  i
Disproportionate Share Hospital Payment Restrictions

Since the inception of the DSH program in 1981, Congress has enacted four key pieces of
legislation that have restricted State agencies’ flexibility in the ways they allocate DSH
payments:

   •   The OBRA of 1987 requires State agencies to deem certain hospitals as Medicaid DSH
       providers. This legislation also outlines payment methodologies.

   •   The Medicaid Voluntary Contribution and Provider-Specific Tax Amendments of 1991
       limit DSH payments by establishing State DSH allotments. The State DSH allotments
       are annual limits on Federal matching funds available for payments made by each State
       agency to qualifying hospitals.

   •   The OBRA of 1993 further limits DSH payments by imposing hospital-specific DSH
       limits on Medicaid payments to hospitals’ uncompensated care costs. (The hospital-
       specific DSH limit is no more than 100 percent of each hospital’s uncompensated care
       costs. In this report, we refer to the hospital-specific DSH limit simply as the DSH limit.)
       In addition, the OBRA of 1993 imposes a minimum MIUR of 1 percent for hospitals to
       be eligible to receive DSH payments.

   •   The Balanced Budget Act of 1997 limits DSH payments to Institutions for Mental
       Disease (IMD) by creating an IMD DSH limit. The IMD DSH limit restricts the portion
       of DSH payments a State agency can allocate to IMDs, or other mental health facilities,
       as a group within that particular State.

We classified hospitals within seven selected States according to four hospital categories: State-
owned IMDs, other State-owned hospitals, local public hospitals, and private hospitals.

OBJECTIVE

Our objective was to determine the proportion of uncompensated care costs incurred by State-
owned IMDs, other State-owned hospitals, local public hospitals, and private hospitals that were
reimbursed by seven selected State agencies’ DSH payments.

SUMMARY OF FINDINGS

During Federal fiscal years 2003 through 2007, most of the seven selected State agencies
reimbursed State-owned IMDs and other State-owned hospitals the highest proportion of the
hospitals’ uncompensated care costs.

In comparing DSH payments between hospital categories, we found that:

   •   three of the seven State agencies reimbursed State-owned IMDs the highest proportion of
       uncompensated care costs,



                                                ii
   •   three of the seven State agencies reimbursed other State-owned hospitals the highest
       proportion of uncompensated care costs, and

   •   one of the seven State agencies reimbursed private hospitals the highest proportion of
       uncompensated care costs.

In analyzing the relationship between the DSH payments and uncompensated care costs for all of
the hospitals classified as DSH in the seven selected States, we found that, in the aggregate:

   •   State-owned IMDs received DSH payments averaging 92 percent of their uncompensated
       care costs,

   •   other State-owned hospitals received DSH payments averaging 95 percent of their
       uncompensated care costs,

   •   local public hospitals received DSH payments averaging 69 percent of their
       uncompensated care costs, and

   •   private hospitals received DSH payments averaging 38 percent of their uncompensated
       care costs.

RECOMMENDATION

We recommend that CMS evaluate how DSH payments are distributed among hospital
categories and consider requesting congressional legislation to assure a more even distribution of
payments based on uncompensated care costs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation but noted
that recent congressional action may affect DSH payments. CMS stated that it would reevaluate
the need to request additional legislative authority to assure a more even distribution of payments
based on uncompensated care costs. CMS’s comments are included in their entirety as the
Appendix.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION.......................................................................................................................1

       BACKGROUND .................................................................................................................1
         Medicaid Program ..........................................................................................................1
         Disproportionate Share Hospital Program .....................................................................1
         Disproportionate Share Hospital Payment Eligibility....................................................1
         Disproportionate Share Hospital Payment Restrictions .................................................2
         Disproportionate Share Hospital Payment Allocations .................................................2

       OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
         Objective ........................................................................................................................3
         Scope ............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATION................................................................................4

     STATE-OWNED FACILITIES RECEIVED REIMBURSEMENT FOR A HIGHER
       PROPORTION OF UNCOMPENSATED CARE COSTS ............................................. 5

     CONCLUSION ....................................................................................................................... 8

     RECOMMENDATION ..........................................................................................................8

     CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...........................8

OTHER MATTER......................................................................................................................8

APPENDIX

     CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iv
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Disproportionate Share Hospital Program

The Omnibus Budget Reconciliation Act (OBRA) of 1981 established the Medicaid
Disproportionate Share Hospital (DSH) program. The Medicaid DSH program was established
in response to findings that public hospitals and teaching hospitals, which serve a large Medicaid
and low-income population, are particularly dependent on Medicaid reimbursement, have high
levels of uncompensated care costs, 1 and therefore need additional financial support to continue
providing care to the needy.

The DSH program requires State Medicaid agencies (State agency) to make special payments,
known as DSH payments, to hospitals that serve unusually large numbers of low-income and/or
uninsured patients. The Federal Government reimburses State agencies for a percentage of their
DSH payments. In 1997, State agencies were allotted approximately $11.7 billion for DSH
payments; in 2007, the State agencies were allotted approximately $10.6 billion.

Disproportionate Share Hospital Payment Eligibility

For a hospital to receive DSH payments, the State agency must classify the hospital as DSH.
Section 1923 of the Act states that State agencies must make DSH payments to certain hospitals
that meet certain requirements and thus are deemed DSH. Specifically, a hospital is deemed
DSH, and a State agency must make DSH payments to it, if the hospital’s Medicaid inpatient
utilization rate (MIUR) is at least one standard deviation greater than the average for all hospitals
participating in Medicaid or if its low-income utilization exceeds 25 percent. 2 In addition,
section 1923 of the Act allows State agencies to designate additional hospitals in their State plans
as DSH provided that such hospitals each have an MIUR of not less than 1 percent.




1
  Uncompensated care costs are the sum of costs incurred to provide services to Medicaid and uninsured patients
less payments received for those patients.
2
 A hospital’s MIUR, expressed as a percentage, is the number of inpatient days attributable to patients who were
Medicaid-eligible divided by the total of the hospital’s inpatient days in a particular year.

                                                         1
Disproportionate Share Hospital Payment Restrictions

Since the inception of the DSH program in 1981, Congress has enacted four key pieces of
legislation that have restricted State agencies’ flexibility in the ways they allocate DSH
payments:

    •    The OBRA of 1987 requires State agencies to deem certain hospitals as Medicaid DSH
         providers. This legislation also outlines payment methodologies.

    •    The Medicaid Voluntary Contribution and Provider-Specific Tax Amendments of 1991
         limit DSH payments by establishing State DSH allotments. The State DSH allotments
         are annual limits on Federal matching funds available for payments made by each State
         agency to qualifying hospitals.

    •    The OBRA of 1993 further limits DSH payments by imposing hospital-specific DSH
         limits 3 on Medicaid payments to hospitals’ uncompensated care costs. In addition, the
         OBRA of 1993 imposes a minimum MIUR of 1 percent for hospitals to be eligible to
         receive DSH payments.

    •    The Balanced Budget Act (BBA) of 1997 limits DSH payments to Institutions for Mental
         Disease (IMD) by creating an IMD DSH limit. The IMD DSH limit restricts the portion
         of DSH payments a State agency can allocate to IMDs, or other mental health facilities,
         as a group within that particular State. 4

Disproportionate Share Hospital Payment Allocations

Within the restrictions set by legislation, each State agency has broad flexibility to allocate DSH
payments to DSH-eligible hospitals. Section 1923(c) of the Act provides the methods for State
agencies to calculate DSH payments.

We classified hospitals within seven selected States according to four hospital categories: State-
owned IMDs, other State-owned hospitals, local public hospitals, and private hospitals.




3
  The hospital-specific DSH limit is no more than 100 percent of each hospital’s uncompensated care costs. In this
report, we refer to the hospital-specific DSH limit simply as the DSH limit. The Benefits Improvement and
Protection Act (BIPA) of 2000 increased the DSH limit for all qualifying public hospitals to 175 percent of a
hospital’s uncompensated care costs for a period of 2 years beginning in State fiscal year (FY) 2003.
4
  The BBA of 1997 defines an IMD as “a hospital, nursing facility, or other institution of more than 16 beds, that is
primarily engaged in providing diagnosis, treatment, or care of persons with mental diseases, including medical
attention, nursing care and related services.” See section 1905(i) of the Act. For the State agencies we reviewed,
the majority of IMDs that received DSH payments were State-owned IMDs.


                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the proportion of uncompensated care costs incurred by State-
owned IMDs, other State-owned hospitals, local public hospitals, and private hospitals that were
reimbursed by seven selected State agencies’ DSH payments.

Scope

We reviewed the DSH payments at the State agencies in seven States: Kansas, Louisiana,
Missouri, New Jersey, New York, North Carolina, and Texas, for Federal FYs 2003 through
2007. During this period, the seven State agencies claimed a total of $37,735,708,315
($21,252,302,016 Federal share) in DSH payments.

We did not perform a detailed review of each State agency’s internal controls, because our
objectives did not require us to do so. We limited our internal control review to obtaining an
understanding of the State agencies’ policies and procedures used to claim DSH expenditures.

We performed fieldwork at the State agencies in Jefferson City, Missouri; Albany, New York;
and Trenton, New Jersey. For the remaining four State agencies reviewed, we analyzed the DSH
data in our Kansas City, Missouri, regional office.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the OBRA of 1981, the OBRA of 1987, Medicaid Voluntary and Provider-
        Specific Tax Amendments of 1991, the OBRA of 1993, and the BBA of 1997.

   •    We reviewed other applicable Federal and State requirements.

   •    We judgmentally selected seven State agencies based on DSH payments and IMD DSH
        limits.

   •    We reviewed each selected State agency’s policies and procedures concerning their
        administration of their DSH programs.

   •    We obtained DSH payment amounts, uncompensated care costs, and MIUR data from the
        seven selected State agencies for FYs 2003 through 2007; however, we did not verify the
        accuracy of this information. We used these data in our calculations and analysis.

   •    We classified the hospitals receiving DSH payments into hospital categories based on
        hospital ownership as defined by Federal regulations: private-owned, State-owned, and
        non-State owned. To analyze the DSH payments to State-owned hospitals, we further
        classified the hospital ownership of State-owned hospitals by State-owned IMDs and


                                                3
       other State-owned hospitals. We changed non-State owned to local public to clarify the
       hospital type for local, county, and city hospitals.

   •   We analyzed the seven selected State agencies’ DSH payment information by hospital
       category, that is, State-owned IMD, other State-owned hospitals, local public hospitals,
       and private hospitals. Specifically, we determined:

           o the proportion of the DSH payments relative to uncompensated care costs, by
             hospital category, for each of the seven selected States and

           o the proportion of Medicaid patients (relative to total patient population) for each
             hospital category in the seven selected States.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

During FYs 2003 through 2007, most of the seven selected State agencies reimbursed State-
owned IMDs and other State-owned hospitals the highest proportion of the hospitals’
uncompensated care costs.

In comparing DSH payments between hospital categories, we found that:

   •   three of the seven State agencies reimbursed State-owned IMDs the highest proportion of
       uncompensated care costs,

   •   three of the seven State agencies reimbursed other State-owned hospitals the highest
       proportion of uncompensated care costs, and

   •   one of the seven State agencies reimbursed private hospitals the highest proportion of
       uncompensated care costs.

In analyzing the relationship between the DSH payments and uncompensated care costs for all of
the hospitals classified as DSH in the seven selected States, we found that, in the aggregate:

   •   State-owned IMDs received DSH payments averaging 92 percent of their uncompensated
       care costs,

   •   other State-owned hospitals received DSH payments averaging 95 percent of their
       uncompensated care costs,

   •   local public hospitals received DSH payments averaging 69 percent of their
       uncompensated care costs, and

                                                4
   •   private hospitals received DSH payments averaging 38 percent of their uncompensated
       care costs.

STATE-OWNED FACILITIES RECEIVED REIMBURSEMENT FOR A HIGHER
PROPORTION OF UNCOMPENSATED CARE COSTS

During FYs 2003 through 2007, most of the seven selected State agencies reimbursed State-
owned IMDs and other State-owned hospitals the highest proportion of the hospitals’
uncompensated care costs. Six of the seven selected State agencies reimbursed a higher
percentage of uncompensated care costs through DSH payments to State-owned IMDs and other
State-owned hospitals. These six State agencies generally reimbursed lower percentages of
uncompensated care costs through DSH payments to local public hospitals and private hospitals.
In comparing DSH payments between hospital categories for the seven State agencies reviewed,
we found that three of the seven State agencies paid State-owned IMDs the highest proportion of
uncompensated care costs, three of the seven State agencies paid other State-owned hospitals the
highest proportion of uncompensated care costs, and one of the seven State agencies paid private
hospitals the highest proportion of uncompensated care costs.

In the aggregate, State-owned IMDs received DSH payments averaging 92 percent of their
uncompensated care costs and other State-owned hospitals received DSH payments averaging
95 percent of their uncompensated care costs, while local public hospitals received DSH
payments averaging 69 percent of their uncompensated care costs and private hospitals received
DSH payments averaging 38 percent of their uncompensated care costs.

Table 1 shows the hospital count and the DSH payments by hospital category for each of the
seven selected State agencies. Table 2 shows the uncompensated care costs, along with the
percentage of uncompensated care costs reimbursed through DSH payments for each of the
seven selected State agencies.




                                               5
      Table 1: 5 Disproportionate Share Hospital Count and Disproportionate Share Hospital
            Payment by Hospital Category for State Fiscal Years 2003 Through 2007 6

               State-                      Other
              Owned                        State-        Other State-       Local        Local Public                     Private
               IMDs’      State-Owned      Owned           Owned            Public       Hospitals—        Private      Hospitals—
              Hospital    IMDs—Total      Hospitals’   Hospitals—Total     Hospitals’     Total DSH       Hospitals’    Total DSH
     State     Count     DSH Payments      Count        DSH Payments        Count         Payments         Count         Payments

Kansas           3        $102,643,420      N/A 7                    N/A      37           $96,713,094       22           $67,765,902

Louisiana 8      4         391,418,769       11           2,837,872,179       44           311,896,253       63            89,172,049

Missouri         8        1,086,124,874       3             85,155,602        35           163,267,232       93          1,599,667,735
New
Jersey           6        1,716,155,044      N/A                     N/A       9          1,356,918,783      93          2,891,287,410

New York        26        2,941,905,067       5           1,068,106,947       22          6,544,813,763      189         3,837,590,718
North
Carolina         4         698,337,343        1            184,704,754        42          1,116,412,509      63            75,401,241

Texas           10        1,392,998,960       4           1,159,692,737       85          3,014,652,655      115         1,650,356,001

 Totals         61       $8,329,583,477      24          $5,335,532,219       274       $12,604,674,289      638       $10,211,241,056




 5
   In Tables 1 and 2, the DSH payments and uncompensated care costs include both Federal and State share. Some of
 the selected State agencies report DSH payments on a State FY basis, but the State DSH allotments are on a Federal
 FY basis (and, moreover, include only the Federal share). Therefore, a comparison between the DSH payment and
 the DSH allotment would not be accurate.
 6
  In Tables 1 and 2, the information for the Louisiana, New Jersey, and New York State agencies is based on
 FY DSH payments rather than on State FY DSH payments.
 7
  “N/A” (not applicable) signifies that that State agency did not receive DSH payments for that particular category of
 hospital.
 8
  The Louisiana State agency was unable to provide the 2007 uncompensated care costs. Therefore, the information
 provided for Louisiana in Tables 1 and 2 includes only FYs 2003 through 2006 data.


                                                                 6
                         Table 2: Disproportionate Share Hospital Payments as a Percentage of the
                                         Disproportionate Share Hospital Limit by
                                Hospital Category for State Fiscal Years 2003 Through 2007

                                                                 Other State-
                                  State-Owned                      Owned                          Local Public                       Private
                                  IMDs—Total                     Hospitals—                       Hospitals—                       Hospitals—
                                      DSH        Other State-     Total DSH                        Total DSH                        Total DSH
                                  Payments As      Owned         Payments As     Local Public     Payments As       Private        Payments As
                 State-Owned       Percent of     Hospitals’      Percent of      Hospitals’       Percent of      Hospitals’       Percent of
  State          IMDs’ UCC 9          UCC           UCC            UCC 10           UCC              UCC             UCC              UCC

Kansas            $220,972,700           46%              N/A             N/A     $155,656,258             62%      $78,127,395            87%

Louisiana          452,966,342           86%    $3,012,350,572           94%       383,512,941             81%      444,500,998            20%

Missouri          1,086,124,874          100%     101,050,960            84%       183,409,693             89%     1,814,224,549           88%
New
Jersey            1,836,317,167          93%              N/A             N/A     1,744,783,963            78%     7,332,210,477           39%

New York          3,023,366,500          97%     1,421,581,596           75%      8,672,692,878            75%    12,497,567,436           31%
North
Carolina           946,846,317           74%      153,978,924           120%      1,375,713,124            81%     1,376,345,617            5%

Texas             1,449,833,687          96%      921,804,888           126%      5,783,740,245            52%     3,548,767,698           47%

 Totals          $9,016,427,587          92%    $5,610,766,940           95%    $18,299,509,102            69%   $27,091,744,170           38%


            Tables 1 and 2 show the results of the flexibility that section 1923(c) of the Act affords to State
            agencies for DSH payments. For example:

                  •    The North Carolina State agency paid its 4 State-owned IMDs $698 million in DSH
                       payments (74 percent of the DSH limit for all State-owned IMDs in North Carolina),
                       while over the same time period it paid 63 private hospitals in North Carolina $75 million
                       (5 percent of the DSH limit for all private hospitals in North Carolina). Thus, State-
                       owned IMDs had approximately $249 million in uncompensated care costs not
                       reimbursed by DSH payments, while private hospitals in North Carolina had
                       approximately $1.3 billion in uncompensated care costs not reimbursed by DSH
                       payments.

                  •    The Louisiana State agency paid its 11 other State-owned hospitals $2.8 billion in DSH
                       payments (94 percent of the DSH limit for all other State-owned hospitals in Louisiana),
                       while during the same time period it paid 63 private hospitals in Louisiana $89 million
                       (20 percent of the DSH limit for all private hospitals in Louisiana). Thus, other State-
                       owned hospitals had approximately $174 million in uncompensated care costs not
                       reimbursed by DSH payments, while private hospitals in Louisiana had approximately
                       $355 million in uncompensated care costs not reimbursed by DSH payments.




            9
                Uncompensated care costs.
            10
              The BIPA of 2000 increased the DSH payment limit for all qualifying public hospitals to 175 percent of a
            hospital’s uncompensated care costs for 2 years beginning in State FY 2003.


                                                                          7
CONCLUSION

Despite the restrictions set by legislation, States retain considerable flexibility in apportioning
DSH payments between hospital categories. This has resulted in wide variations in the
distribution of DSH payments from State to State. As a result, the proportion of uncompensated
care costs covered by DSH payments varies widely between State-owned IMDs, other State-
owned hospitals, local public hospitals, and private hospitals. Generally, among the States we
reviewed, a greater proportion of uncompensated care costs are covered by DSH payments to
State-owned IMDs and other State-owned hospitals than are covered by DSH payments to local
public hospitals and private hospitals.

RECOMMENDATION

We recommend that CMS evaluate how DSH payments are distributed among hospital
categories and consider requesting congressional legislation to assure a more even distribution of
payments based on uncompensated care costs.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation but noted
that recent congressional action may affect DSH payments. CMS stated that it would reevaluate
the need to request additional legislative authority to assure a more even distribution of payments
based on uncompensated care costs. CMS’s comments are included in their entirety as the
Appendix.

                                        OTHER MATTER

With respect to Medicaid inpatient utilization, during FYs 2003 through 2007, the seven selected
State agencies made DSH payments to State-owned IMDs, which generally served a lower
proportion of Medicaid-eligible patients (as measured by the facilities’ MIURs) than other State-
owned hospitals, local public hospitals, and private hospitals. Out of the seven State agencies
reviewed, we found that three of the seven State agencies served a larger percentage of
Medicaid-eligible patients in other State-owned hospitals than they served in any of the other
three hospital categories, three of the seven State agencies served a larger percentage of
Medicaid-eligible patients in local public hospitals than they served in any of the other three
hospital categories, and one of the seven State agencies served a larger percentage of Medicaid-
eligible patients in private hospitals than they served in any of the other three hospital categories.

For all seven selected State agencies, the State-owned IMDs had the lowest MIURs of the four
hospital categories. The overall average MIUR for the seven selected State agencies was
11 percent for the State-owned IMDs; by contrast, the overall average MIURs for the other State-
owned hospitals, local public hospitals, and private hospitals were 29, 34, and 24 percent,
respectively.

IMDs generally care for a lower proportion of Medicaid patients, and thus have lower MIURs,
because section 1905 of the Act prohibits Medicaid reimbursement for the cost of inpatient



                                                  8
services when they are provided to persons aged 22 through 64 who are patients of IMDs. 11
Even though most patients at IMDs are not eligible for Medicaid, many IMDs qualify for DSH
payments because the Act allows a State agency to designate a hospital as DSH if the hospital’s
MIUR is not less than 1 percent. IMD patients aged 22 through 64 cannot be included in the
“total Medicaid days” portion of the MIUR calculation. However, for those IMD patients aged
22 through 64 who are uninsured, the costs can be and are included in the uncompensated care
calculation, which increases the hospital-specific DSH limit and thus increases the allowable
DSH payment.

Congress imposed DSH payment limits on IMDs as part of the BBA of 1997. Six of the seven
States we reviewed complied with these IMD limits. 12 Despite this compliance, the seven
selected State agencies made DSH payments that, as a proportion of uncompensated care costs,
were generally higher to State-owned IMDs than were the DSH payments to other hospital
categories, even though the State-owned IMDs generally had the lowest MIURs of any of the
four hospital categories. Because DSH payments are meant to cover the uncompensated care
costs of both Medicaid and uninsured patients, the seven selected State agencies were able to
obtain Federal matching funds through DSH payments that indirectly covered costs of services
provided to patients in IMDs—costs for which Medicaid cannot pay directly.

Table 3 shows the average MIURs, by hospital category, for the seven selected State agencies.

Table 3: Average Medicaid Inpatient Utilization Rates for Fiscal Years 2003 Through 2007

                                                       Other
                                        State-         State-    Local
                                        Owned          Owned     Public                   Private
                                         IMD          Hospitals Hospitals                Hospitals
              Kansas                      16%               N/A     25%                           26%
              Louisiana                    9%               36%     18%                           27%
              Missouri                     5%               29%     11%                           18%
              New Jersey                   8%               N/A     28%                           15%
              New York                    14%               27%     57%                           29%
              North Carolina               5%               30%     21%                           18%
              Texas                       12%               22%     34%                           26%
                 Average 13               11%               29%     34%                           24%




11
     In some circumstances, the exclusion also applies to individuals who are aged 21.
12
  We are reviewing the seventh State agency in a separate audit to determine whether that State complied with the
IMD limits.
13
  We calculated the overall average MIUR using the total Medicaid days divided by the total bed days, by hospital
category. Therefore, the overall average for each hospital category cannot be correctly calculated by totaling the
average MIUR for each State agency and dividing by seven.


                                                            9
APPENDIX
                                                                                                                         Page 1 of2



APPENDIX: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


                                                                                 Centers for Medicare & Medicaid Services


                                                                                 Administrator
                                                                                 WaShjn~~ , DC 20201

                                                                                                  .", =
                                                                                                  (      ~



                                                                                                         =       ."
                                                                                                         :It
                                                                                                  "
                                                                                                                "-,
                                                                                            C')   r ,~   ".
                                                                                            me           -<
                                                                                                          I
                                                                                            z'           W        '1
     DATE:           APR 3 0 2010
                                                                                            ", .
                                                                                            ::0 ~~ .
                                                                                                                .. ~::

     TO:            Daniel R. Levinson
                                                                                            I>
                                                                                            r­           ":It   rtl
                                                                                                         't?    0
                     nspector~\a~                                                                        N



                             ~
                                 ~
                                                                                                         -.J

     FROM:            an       aenne                                                                                     0
                    Acting A    . nistrator and Chief Operating Officer

     SUBJECT: 	 Office of Inspector Genera l (OIG) Draft Report: "Rev iew of Medicaid
                Disproportionate Share Hospital (DSH) Payment Distribution" (A-07-09-04IS0)


     Thank you for the opportunity to review and comment on the subject draft report. This report
     was initiated by the OIG to determine the proportion of uncompensated care costs incurred by
     State-owned Institutions for Mental Di seases (IMD), other State-owned hospita ls, local public
     hospitals, and private hospitals that were reimbursed by seven selected State agencies'
     Disproportionate Share Hospital (DSH) payments. The report found that uncompensated care
     costs were reimbursed, in the aggregate, at 92 percent in State-owned IMDs, 95 percent in other
     State-owned hospitals, 69 percent in local public hospitals, and 38 percent in private hospitals.

     The draft report recommends that the Centers for Medicare & Medicaid Services (CMS) evaluate
     how DSH payments are di stributed among hospital categories and consider requesting
     Congressionallegislalioll to assure a more even di stribution of payments based on
     uncompensated care costs.

     The e MS concurs with the recommendation, but notes that recent Congressional action may
     affect this issue. Congress recently enacted legi slation affecting DSH payments that relates to
     the above recommendation. Section 2551 ofthe Patient Protection and Affordable Care Act, as
     modified by Section 1203 of the Health Care and Education Reconciliation Act of2010,
     provides for a reduction in DSH payments star1ing in 2014 and directs the Secretary to develop a
     methodo logy that imposes the largest DSH payment reducti ons on States that do not target DSH
     payments toward hospitals with the highest volume of Medicaid and uncompensated care.

     Such a methodology may adversely affect States that have payment methodologies that
     reimburse a larger percentage ofullcompensated care costs for private hospitals. These private
     hospitals may have a lower overall volume of Medicaid and uncompensated care than State
     hospitals and State institutions for mental diseases. Such a methodology would probably not
     affect States that reimburse a larger percentage of uncompensated care costs for State-owned
     IMDs, other State-owned hospitals, or local private hospitals. These facilities tend to have
     higher level s of uncompensated care and, with the exception oflMDs, higher levels of Medicaid
     utilization than private hospitals. Further, after the implementation of thi s new methodology,
                                                                                                   Page2of2




Page 2-· Marilyn Tavenner

eMS wi ll reevaluate the need to request additional legislative authority to assure a more even
distribution of payments based on uncompensated care costs.

We appreciate the efforts that went into this report and look forward to working with the OlG on
this and other issues.
